U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 27, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Xiulu Ruan v. United States of America,
S.Ct. No. 20-1410

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 5,
2021, and placed on the docket on April 7, 2021. The government’s response is due on May 7,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 7, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1410
RUAN, XIULU
USA

JENNIFER OLIVA
ASSOCIATE PROFESSOR OF LAW
DIRECTOR, CENTER FOR HEALTH &
PHARMACEUTICAL LAW
SETON HALL UNIVERSITY SCHOOL OF LAW
ONE NEWARK CENTER
NEWARK, NJ 07102
JENNIFER.OLIVA@SHU.EDU
LAWRENCE SAUL ROBBINS
ROBBINS, RUSSELL, ENGLERT, ORSECK,
UNTEREINER & SAUBER LLP
2000 K STREET, N.W.
WASHINGTON, DC 20006
202-775-4501
IROBBINS@ROBBINSRUSSELL.COM

